                                 United States Department of Agriculture
                                          Office of Inspector General
                                           Washington, D.C. 20250




DATE:             December 9, 2010

AUDIT
NUMBER:           03601-28-KC (1)

TO:               Jonathan Coppess
                  Administrator
                  Farm Service Agency

ATTN:             Philip Sharp
                  Acting Director
                  Operations Review and Analysis Staff

FROM:             Gil H. Harden         /s/
                  Assistant Inspector General
                    for Audit

SUBJECT:          Recommendations for Improving Basic CHST Program Administration
                  Biomass Crop Assistance Program Controls over Collection, Harvest, Storage,
                  and Transportation Matching Payments Program

Summary


The Biomass Crop Assistance Program (BCAP) was authorized by the Food, Conservation, and
Energy Act of 2008 (2008 Farm Bill) to support the establishment and production of eligible
crops of renewable biomass. 1 Biofuel production plays a key role in the Administration’s efforts
to achieve homegrown sustainable energy options. 2 One portion of BCAP involves provisions
for matching payments to assist agricultural and forest land owners and operators with the cost of
collection, harvest, storage, and transportation (CHST) of eligible material for use in a qualified
biomass conversion facility. This provides an incentive for collecting underutilized biomass,
such as crop residue and wood waste, for energy production. 3 Before the program was

1
  Biomass is organic material that can be converted into heat, power, bio-based products, or advanced biofuels.
2
  “Memorandum on Biofuels and Rural Economic Development,” Daily Compilation of Presidential Documents, dated May 5,
  2009.
3
  Farm Service Agency, “Fact Sheet: The Biomass Crop Assistance Program,” dated June 2010. Congressional Research Service,
  “Biomass Crop Assistance Program: Status and Issues,” dated August 13, 2010.
Jonathan Coppess                                                                                                               2


terminated, 4 the Farm Service Agency (FSA) spent a total of over $243 million on the CHST
portion in 2009 and 2010. 5

BCAP is a brand new program unlike any other that FSA has historically delivered.
Additionally, the CHST portion of BCAP resulted in very high FSA county office workload in
many areas minimally staffed because of limited production agriculture activities and
participation by a producer base not normally accustomed to doing business with FSA. At the
request of FSA, OIG performed a review of the CHST portion of BCAP, focusing on the efficacy
of processes and controls FSA used in implementing the program. Based on our review of
12 county office operations in 4 States, as well as overall administration of the program at the
national office, we found wide-ranging problems in how the CHST program was operated.
These included inconsistent application of program provisions across State and county offices,
varying methods for measuring biomass moisture levels, 6 inconsistent use of program forms, and
data errors. These problems occurred because FSA, in an effort to quickly implement the
program to comply with a deadline established by Presidential Directive, was unable, in the
limited timeframe, to develop a handbook, specialized forms, or a computer support system that
was suited to the specific requirements of the CHST program. Due to these problems, FSA
implemented a program that encumbered the efforts of its field-level personnel and resulted in
inequitable treatment of program participants, improper payments, and reduced scope for
oversight and accountability.

In order to correct these problems, we are recommending that FSA develop a program-specific
handbook, program-specific forms, and a program-dedicated data system that includes suitable
edit checks and reporting functions. These issues are being provided in a Fast Report format to
aid FSA as it moves forward with re-implementation of the CHST program. This Fast Report
provides only a few examples of the problems and deficiencies found by OIG; a full report with
greater scope and detail will be provided at the completion of our fieldwork. Agency managers
were previously briefed on these findings and were in general agreement with the facts.

Background

The 2008 Farm Bill authorized such sums as are necessary to carry out BCAP, and in 2009, it
received $25 million in funding. The 2010 Supplemental Appropriations Act 7 set BCAP funding
at $552 million in fiscal year 2010.




4
    The program was terminated after the proposed rule was issued on February 3, 2010; however, deliveries were allowed to
    continue through April 30, 2010. The final rule was issued on October 27, 2010. With the final rule announcement the
    collection, harvest, storage, and transportation program has been reauthorized, but is currently awaiting implementation
    guidance.
5
    Farm Service Agency, “BCAP CHST Summary Report,” dated October 20, 2010.
6
    All moisture measurements were performed by biomass conversion facilities. These data were then submitted to FSA to
    support matching payment disbursements.
7
    Public Law 111-212.
Jonathan Coppess                                                                                                                    3


BCAP supports two sets of activities. First, it provides funding for “matching payments” for
certain eligible material sold to qualified biomass conversion facilities. CHST matching
payments are made at a rate of $1 for each $1 per dry ton 8 paid by a qualified biomass
conversion facility, in an amount up to $45 per dry ton. Second, BCAP provides funding for
producers to establish and maintain renewable biomass crops in specified project areas. The
second part of the program had not yet been implemented at the time of our review.

On May 5, 2009, the President issued a directive calling for the acceleration of investment in and
production of biofuels. 9 In particular, the directive called for the issuance of guidance and
support related to the collection, harvest, storage, and transportation of eligible materials for use
in biomass conversion facilities within 30 days. In order to meet this directive, on June 11, 2009,
the Commodity Credit Corporation (CCC) published a BCAP notice of funds availability in the
Federal Register for the collection, harvest, storage, and transportation of eligible materials.
FSA administers this program on behalf of CCC.

We initially selected Missouri for our review because it allowed us to test our audit program and
it was in close proximity to our office conducting the field work. We then selected FSA offices
in Alabama, California, and Maine because they distributed the largest amounts of matching
payments to program participants. They also represented a diverse range of biomass industries
and varying geographical regions. County offices were selected primarily based on payment
volume. The national office was reviewed to gain perspective on overall program
administration.

Results

The expedited manner in which the CHST program was implemented created confusion among
field level personnel on program requirements, methods of administration, and data system use.
Our review found that, among other issues, county offices allowed different standards for
acceptable moisture levels in biomass shipments, which resulted in inequitable treatment of
program participants. We also found that county offices used forms inconsistently, with one
scenario resulting in improper payments. Finally, we found data errors in the computer system
used for the program that often reported payment amounts violating program requirements.

These problems occurred because FSA was unable to develop a handbook, a specialized form for
the program, or a program-specific database. FSA usually develops program handbooks to
instruct county office personnel in the day-to-day administration of a major program. However,
FSA officials explained they did not have the time to develop a handbook for the CHST
program.

8
    There is no definition of “dry ton” in the notice of funding availability or statute. The final rule states that one dry ton means
    “one U.S. ton measuring 2,000 pounds. One dry ton is the amount of renewable biomass that would weigh one U.S. ton at zero
    percent moisture content.” It is important to note that the final rule was not issued during the period under study. However,
    Notice BCAP-2, “Implementing the BCAP’s CHST Matching Payment Program,” dated July 12, 2009 defined a dry ton as the
    weight of actual biomass with zero percent moisture.
9
    Published in the Federal Register (FR) on May 7, 2009 (74 FR 21531-21532).
Jonathan Coppess                                                                                                               4


Second, FSA used an existing form developed for the implementation of conservation cost-share
programs that did not fit the particular requirements of the CHST program. On the pre-existing
form AD-245, 10 FSA made a single modification in order to administer the CHST program,
adding a program-specific certification in the “remarks” section. FSA officials explained that
creating new forms would involve obtaining approval from the Office of Management and
Budget (OMB), 11 which can take from 6-9 months. Given the time constraints imposed by the
Presidential Directive, FSA explained that it did not have the time to develop and implement a
properly approved CHST-specific form.

Third, FSA did not develop a program-dedicated data management system with fields
appropriate to the requirements of the CHST program, and did not create edit checks to catch
data entry errors and ensure that data did not violate program provisions. Instead, FSA used the
existing Conservation, Reporting, and Evaluation System (CRES) to monitor CHST program
allocations and expenditures. CRES was originally created to support conservation cost share
programs and the form AD-245. FSA stated that it lacked resources to timely create a new data
system.

If these three elements are not developed before the CHST program is re-implemented, FSA runs
the risk of continuing to encumber the efforts of its field level personnel, potentially resulting in
further inequitable treatment of program participants, improper payments, and reduced oversight
and accountability.

FSA Did Not Determine Adequate Standard Definitions of Moisture Levels

We found that county offices accepted differing methods used by biomass conversion facilities
for determining what levels of moisture in biomass loads would qualify as dry. The moisture
levels were measured by the biomass conversion facilities and then shared with the county
offices on a periodic basis.

During our review, OIG found 5 different methods for measuring moisture levels. For example,
some facilities would individually test each load delivered by a program participant, while others
would combine samples of all shipments from one participant in a given day and then measure
the resulting moisture content. One facility recorded every load delivered as having the same
moisture content rate. 12

The CHST program was required to account for moisture levels when calculating matching
payments. Measuring by dry weight serves to equalize payments for different materials, which
naturally have different moisture rates. Loads with moisture levels higher than zero percent are

10
   Page 1 is called “USDA Request for Cost Shares,” and page 2 is called “Practice Approval and Payment Application.”
11
   Pursuant to the Paperwork Reduction Act of 1995, agencies must go through a public comment and OMB-approval process for
   all new forms that will collect information from 10 or more respondents in a 12 month period.
12
   This facility would often measure moisture content of non-BCAP materials along with BCAP-eligible materials. Also,
   regardless of the actual measurements, the facility made the decision to apply a single moisture content rate, explaining that
   they believed it to be a historical average.
Jonathan Coppess                                                                                    5


paid based on adjusted weight, which is calculated in proportion to the moisture percentage
measured. For example, if a biomass load is measured as having 15-percent moisture, then the
gross weight is reduced by roughly 15 percent. However, one facility used a 12-percent moisture
rate as standard, despite the BCAP Notice which specified that a dry ton should have zero
percent moisture. 13 At this facility, a biomass load having a 15-percent moisture rate would have
had its gross weight reduced by only 3 percent. The county office where the facility in question
was located allowed this practice per advice from the State office and pending the development
of more definitive guidance by the National Office. This practice resulted in overpayments for
biomass loads that would have received less in other areas. For instance, one participant was
overpaid by over $679, while another was overpaid by at least $828. In total, there were 24
program participants who received matching payments for deliveries to this facility for the
county office in question.

Due to these uncertainties over moisture content, program participants received inequitable
treatment. OIG concluded that FSA, as part of developing a handbook for the program, needs to
consistently define and apply the levels of moisture appropriate for the program.

FSA Used an Unsuitable Form for the Program That Resulted in Improper Payments

The form FSA used to administer the CHST program is not tailored to a program that requires
multiple payments over time. Throughout our review, we found inconsistent use of the form
AD-245’s page 2, which is used for supporting program payments.

In the CHST program, county offices receive settlement sheets on a periodic basis which detail
the number of loads received from a program participant and the amount paid for each.
Matching payments are then disbursed based on this information. Unfortunately, within the
structure of the form AD-245, FSA personnel are unable to correct for errors in one payment
disbursement without starting over and detailing all previous payments again. Many county
offices started keeping records by hand to account for errors. In one case, an error in a payment
resulted in two subsequent payment errors before it was finally corrected.

In an extreme example, a county office did not require a completed page 2 to support each
matching payment. Instead, it made an arrangement with the biomass conversion facility where
it would email copies of delivery documents to the county office, and the county office would
generate checks to program participants using information from the documents. During this
arrangement, the county office overlooked some payments when it failed to recognize at least
one email containing copies of delivery documents. This resulted in five producers with eligible
deliveries who did not receive matching payments of over $18,500. Also, at least one program
participant was not paid because the biomass conversion facility did not realize that participant
was approved for the program, and did not forward the payment information to FSA. This
program participant did not receive matching payments totaling over $3,400 for his eligible
deliveries.
13
  Notice BCAP-2, dated July 12, 2009.
Jonathan Coppess                                                                                                                   6


Due to the unsuitable nature of the form used to administer the program, improper payments
were made. OIG concluded that FSA should ensure that day-to-day program administration is
easily facilitated on forms used for the CHST program.

FSA Used an Unsuitable Data System That Hinders Monitoring and Reporting

Because the CRES computer system was not created specifically for the CHST program,
misunderstanding by personnel led to erroneous data being entered into it. To administer the
CHST program correctly, the quantity of dry tons delivered and the payments made both need to
be accumulated for each matching payment. However, some county offices did not know that
CRES automatically adds entries within the dollar field, but not the quantity field. Therefore,
when they would enter the correct quantity and payment for each individual matching payment,
CRES would then show quantities that did not correspond to the total quantities they had entered.
In many cases, this led to performance reporting data showing payment rate amounts
significantly higher than the maximum payment rate of $45 per dry ton. In one instance, the data
indicated a payment rate exceeding $12,000 per dry ton. 14

With inadequate edit checks on the data within the system, discrepancies often occurred that
make it more difficult to monitor compliance with the maximum payment rate. OIG concluded
that as part of developing a program-specific data system, FSA should create appropriate edit
checks for critical and necessary data fields to ensure the data entered are properly validated and
reliable.

Given the problems we found, we are recommending that FSA take the following steps before
any future implementation of the BCAP CHST program:

             Develop (1) a program handbook setting forth policies and procedures governing
             program administration; (2) forms specifically tailored to facilitate day-to-day
             administration and capture relevant program data; and (3) a data system with applied edit
             checks and a designed structure to facilitate data validation, management reporting, and
             data analysis.

Please provide a written response within 5 days outlining your proposed corrective action for this
issue. If you have any questions, please contact me at (202) 720-6945, or have a member of your
staff contact Ernest M. Hayashi, Director, Farm and Foreign Agricultural Services, at
(202) 720-2887.




14
     After conducting our data analysis and discovering these potential errors, we provided FSA with the results of our analysis for
     follow-up.
Agency’s Response




                    USDA’S



           FARM SERVICE AGENCY’S



         RESPONSE TO AUDIT REPORT
United States
Department of
Agriculture
                     December 16, 2010
Farm and
Foreign
Agricultural
Services
                     TO:               Director, Farm and Foreign Agriculture Division
Farm                                   Office of Inspector General
Service
Agency

Operations Review    FROM:             Philip Sharp, Acting Director
and Analysis Staff                     Operations Review and Analysis Staff
1400 Independence
Ave, SW              SUBJECT:          Responding Your Memorandum Dated December 9: Recommendations for
Stop 0540
Washington, DC                         Improving Basic CHST Program Administration Biomass Crop Assistance Program
20250-0540                             Controls over Collection, Harvest, Storage, and Transportation Matching Payments
                                       Program, Audit 03601-28-KC (1)


                     A final rule was published in the Federal Register on October 27, 2010, and new internal guidance,
                     forms, and software are scheduled to be released for matching payments in early January 2011
                     which will satisfy the three OIG recommendations. However, as of December 14, FSA has
                     received all required OMB clearance to make the program available and intends to do so
                     immediately. In the interim period before the new software is available, FSA intends to deliver the
                     matching payments portion of BCAP using the same forms and information systems as were used
                     for previous CHST implementation. Use of the old forms is not likely to be widespread because
                     biomass conversion facilities must first become “qualified” before an eligible material owner could
                     apply for a matching payment.

                     The initial software release scheduled for early January 2011 will be for matching payments. A
                     future software release is planned for the project portion of the program which includes mid- to
                     long-term contracts and establishment payments. The release date may be adjusted to
                     accommodate funding availability for software development.




                     USDA is an equal opportunity provider and employer.
